Case: 19-10661

Date Filed: 03/24/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10661-EE
DIANA BERBER,
Plaintiff - Appellant,
versus
WELLS FARGO, NA,
MARSHA PAINTER,
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S’) FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: WILSON, WILLIAM PRYOR, and MARCUS, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

